<html>
<title> - DEFEATING THE IMPROVISED EXPLOSIVE DEVICE (IED) AND OTHER ASYMMETRIC THREATS: TODAY'S EFFORTS AND TOMORROW'S REQUIREMENTS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-173]

 
                   DEFEATING THE IMPROVISED EXPLOSIVE
                   DEVICE (IED) AND OTHER ASYMMETRIC
                      THREATS: TODAY'S EFFORTS AND
                        TOMORROW'S REQUIREMENTS

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 16, 2008

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                  U.S. GOVERNMENT PRINTING OFFICE
45-681                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
  


               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          ROSCOE G. BARTLETT, Maryland
ELLEN O. TAUSCHER, California        WALTER B. JONES, North Carolina
ROBERT ANDREWS, New Jersey           JEFF MILLER, Florida
SUSAN A. DAVIS, California           PHIL GINGREY, Georgia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
               Steve DeTeresa, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                    Sasha Rogers, Research Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Tuesday, September 16, 2008, Defeating the Improvised Explosive 
  Device (IED) and Other Asymmetric Threats: Today's Efforts and 
  Tomorrow's Requirements........................................     1

Appendix:

Tuesday, September 16, 2008......................................    27
                              ----------                              

                      TUESDAY, SEPTEMBER 16, 2008
 DEFEATING THE IMPROVISED EXPLOSIVE DEVICE (IED) AND OTHER ASYMMETRIC 
          THREATS: TODAY'S EFFORTS AND TOMORROW'S REQUIREMENTS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Oversight and Investigations Subcommittee..............     3
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1

                               WITNESSES

Beasley, William, Director, Joint Rapid Acquisition Cell, Office 
  of the Under Secretary of Defense (Acquisition, Technology and 
  Logistics).....................................................     7
Berkson, Bradley M., Director, Program Analysis and Evaluation, 
  Office of the Secretary of Defense.............................     4
Kamiya, Maj. Gen. Jason K., USA, Director, Joint Training 
  Directorate (J7), U.S. Joint Forces Command....................     8
Matthews, Tom, Director, Warfighter Requirements and Evaluations, 
  Office of the Under Secretary of Defense (Intelligence)........     7
Metz, Lt. Gen. Thomas F., USA, Director, Joint Improvised 
  Explosive Device (IED) Defeat Organization.....................     5

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd...........................................    33
    Beasley, William.............................................    47
    Berkson, Bradley M...........................................    36
    Kamiya, Maj. Gen. Jason K....................................    49
    Matthews, Tom................................................    45
    Metz, Lt. Gen. Thomas F......................................    40
    Snyder, Hon. Vic.............................................    31

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Dr. Snyder...................................................    61
 DEFEATING THE IMPROVISED EXPLOSIVE DEVICE (IED) AND OTHER ASYMMETRIC 
          THREATS: TODAY'S EFFORTS AND TOMORROW'S REQUIREMENTS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                       Washington, DC, Tuesday, September 16, 2008.
    The subcommittee met, pursuant to call, at 1:22 p.m., in 
room 2118, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. The hearing will come to order. Good afternoon. 
We apologize for the delay and a couple of votes.
    Welcome to the Subcommittee on Oversight and Investigations 
hearing on Defeating Improvised Explosive Devices (IEDs) and 
Other Asymmetric Threats. This is the committee's first public 
hearing to discuss these issues.
    The reason we are here today is that the IED remains the 
number one cause of casualties to the coalition and the forces 
in Iraq. More than half of the U.S. deaths due to enemy action 
have been the result of IEDs. Although IEDs are not a new 
threat, they have been used with unprecedented frequency in 
Iraq, and are on the rise in Afghanistan. They promise to be a 
weapon of choice for a long time, potentially, into the future, 
around the world.
    Since former Central Command (CENTCOM) commander, General 
Abizaid, called for a Manhattan Project-like effort five years 
ago to defeat IEDs, Congress has provided nearly $14 billion to 
the Department of Defense's (DOD) efforts. This effort has 
grown from a 12-man Army task force to the Joint IED Defeat 
Organization, or JIEDDO, which currently employs a staff of 
about 3,600 government, military and contract personnel.
    We have two primary questions today: How is JIEDDO doing 
against the threat? And, second, what should be the future of 
JIEDDO? JIEDDO's mission is to defeat the IED as a weapon of 
strategic influence, so today's hearing will provide an 
opportunity to hear how the organization is doing in this 
critical and difficult mission, and how we measure success in 
this fight.
    We are also here to discuss the future of JIEDDO's 
capabilities. While the Deputy Secretary of Defense has made 
the institutionalization of JIEDDO one of its top 25 
transformation priorities to complete before the end of the 
year, it is no surprise that there are plenty of opinions about 
what to do with an organization or a mission that is well-
funded.
    The Department itself has done two recent key assessments. 
The Program Analysis and Evaluation Study Group recommended 
leaving JIEDDO intact, and to start migrating its budget into 
the base defense budget. To this point, almost all of its 
funding has been in the supplemental, and, therefore, not 
authorized to the House Armed Services Committee.
    On the other hand, the Combatant Commanders' Senior 
Warfighter Forum, while recognizing the accomplishments of 
JIEDDO, question whether some of its capabilities were now 
mature enough to transition to standard defense, combatant 
commander (COCOM) or service organizations.
    The Government Accountability Office (GAO) is also 
conducting a study on JIEDDO, on behalf of this committee, 
authorized last year, and our staff has been working with them.
    In the best of all possible worlds, we would have enough 
money to go around for all good ideas, and it is clear that 
JIEDDO has had many good ideas. In this world, though, our 
responsibility is to make sure we can balance funding between 
many must-have capabilities.
    One question we in the Department have to consider is what 
we will do as other asymmetric threats come along. Should this 
JIEDDO inherit them, or will that dilute its focus, which is 
claimed as its core strength? Should we build a new JIEDDO-like 
organization for each new threat as it comes along? Can we 
afford that if we don't transition mature capabilities to 
standard organizations?
    And we present those questions and thoughts today as open 
questions, because I don't think there is any member on this 
subcommittee that comes in with any prejudice or bias or 
answers to the questions and thoughts that have come forward.
    Our panel of witnesses represents JIEDDO, the Department 
and Joint Forces Command: Mr. Bradley Berkson, the director of 
Programs Analysis and Evaluation at the Office of the Secretary 
of Defense; Lieutenant General Thomas Metz, Director of the 
Joint Improvised Explosive Device Defeat Organization, JIEDDO; 
Mr. Tom Matthews, Director of the Warfighter Requirements and 
Evaluations, Office of the Under Secretary of Defense; Mr. 
William Beasley, Director of the Joint Rapid Acquisitions Cell, 
Office of the Under Secretary of Defense; Major General Jason 
Kamiya, Director of the Joint Training Directorate, U.S. Joint 
Forces Command.
    I also wanted to acknowledge the presence today of six 
distinguished members of the Afghan parliament, who are 
attending today as part of the House Democracy Assistance 
Commission's second Committee Operations Seminar.
    Welcome. Let us give them a round of applause.
    [Applause.]
    Dr. Snyder. We appreciate you all so much, for being here. 
And I would like to tell you that the delay because of votes is 
atypical, but it is not. So you have learned one of our 
experiences around here already, today.
    Mr. Akin is recognized for any comments he wants to make.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 31.]

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Akin. Thank you, Chairman Snyder, and, good afternoon 
to the witnesses.
    We appreciate your all being here today.
    Today's hearing is very timely, for a number of reasons, 
not the least of which is the pending change of 
Administrations. There is no question that the new Secretary of 
Defense will want to continue the Joint Improvised Explosive 
Defeat Organization's excellent work. But the organizational 
questions, and how to best sustain this concentrated effort are 
difficult. And it is important to get those issues on public 
record.
    I applaud the Department's initiative in building such a 
comprehensive, effective organization, as JIEDDO. As we know, 
IEDs quickly grew into the most deadly weapon deployed against 
our troops, and it appears to be insurgents' weapon of choice 
for the foreseeable future, anywhere in the world. As long as 
we have the most powerful military in the world, no one will 
attack us directly.
    Asymmetric threats will be the order of the day. And IEDs 
are tailor-made for insurgents--cheap, made from readily 
available materials, easy to build, employ and trigger.
    Obviously, we need to institutionalize the competencies of 
JIEDDO to counter this ongoing threat, as well as the threat 
from powerful explosive form penetrators, EFPs, to our forces. 
That said, JIEDDO was a large organization, working directly 
for Secretary of Defense, with responsibilities and 
acquisition, training, doctrine, intelligence, and operations; 
combining the functions of a combatant command and a military 
department in an ad hoc fashion to solve an important, but 
narrow, problem.
    As an added complication, JIEDDO funding is provided 
through supplementals, which will not continue forever. The 
witnesses will be relieved to hear that I do not have an answer 
to this very complex problem that I want to impose on the 
Department.
    I do think the mission of JIEDDO is critical, and must 
continue, with two caveats. First, I don't see how JIEDDO can 
reasonably be sustained for the long term with the current 
structure and funding mechanism. Second, I believe JIEDDO may 
be performing some redundant functions that are better left to 
the military services or combatant commands.
    Thank you, again, for our witnesses, for being here today, 
and to address these and other important questions.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 33.]
    Dr. Snyder. Thanks, Mr. Akin.
    What we will do is we will begin down here with Mr. 
Berkson, and come on down the row.
    We have that very attractive clock in front of you that 
goes from green light; and with one minute, goes to a yellow 
light, and then to the red light. It is a five-minute clock. I 
put that there more for your indication of where you are at. 
Don't feel like you have to come to an abrupt stop when it goes 
on. It just gives you a sense of where we are at. But, then, I 
know members will have questions, also.
    So, Mr. Berkson, we will begin with you.

STATEMENT OF BRADLEY M. BERKSON, DIRECTOR, PROGRAM ANALYSIS AND 
         EVALUATION, OFFICE OF THE SECRETARY OF DEFENSE

    Mr. Berkson. Thank you, Mr. Chairman.
    I am Brad Berkson. I am the director of the----
    Dr. Snyder. Pull that in. Pull those microphones in close 
to you, if you would.
    Mr. Berkson. Sir, I am Brad Berkson. I am the director of 
the Office of the Secretary of Defense's Program Analysis and 
Evaluation organization. I am joined today by Lieutenant 
General Tom Metz, from JIEDDO, Tom Matthews, from the Under 
Secretary for Intelligence's office, William Beasley from 
Acquisition, Technology and Logistics (AT&L), and Major General 
Jason Kamiya, from Joint Forces Command.
    The Department of Defense (DOD) aggressively supports 
JIEDDO and its institutionalization. In 2006, Deputy Secretary 
England established JIEDDO for the Department's efforts to 
rapidly and systematically reduce the effects of IEDs against 
our forces. Since then, JIEDDO has done a tremendous job, and 
has acted to respond to the disruptive threats posed by IEDs, 
and the networks behind them.
    The Secretary and its most senior military and civilian 
advisors have concluded there is a continuing need for this 
organization, and we have done--indicated so by funding JIEDDO 
in the base budget to the tune of about $500 million, in both 
the 2008 and 2009 requests. In fact, we have, in the future 
year's defense plan, increased that funding close to $1 billion 
by fiscal year 2013.
    The enduring value of an organization like JIEDDO, that 
rapidly acquires and fields IED capabilities, and the fact that 
we funded it in the base budget, continues to support our view 
that IED and its defeat will be important in the coming years. 
That is why we put it in the base budget.
    As we are looking at 2010 and, and this committee has 
mentioned, looking at the future, it may be, in fact, that we 
need to increase the funding in the future base budgets, for 
this organization to continue.
    Currently, JIEDDO reports to the Deputy Secretary of 
Defense, and he works in close coordination with the vice 
chairman of the Joint Chiefs. The direct linkage between JIEDDO 
and our most senior leadership reflects the priority this has 
in protecting our troops; furthermore, it facilities oversight 
at the highest levels of the Department.
    Congress has entrusted the department for JIEDDO, and 
represents--and this senior-leadership oversight of that--
represents our effort to manage that at the top level of the 
organization.
    Finally, as we think about institutionalizing this 
organization, the talent and the people at JIEDDO will be 
critical. Funding this organization in the base budget and 
indicating that we are committed to it through that funding, 
indicates to people that General Metz has to hire that we are 
going to support this organization in the future. And I think 
it sends a very strong signal to those people when we do so.
    Finally, the fact that the DOD has engaged in this counter-
IED fight has potential for duplication. Here, again, having 
this single point of contact in the JIEDDO organization 
provides an opportunity to have a joint forum for collecting 
and synchronizing all of these issues in one place; thus, 
JIEDDO is able to leverage the DOD and interagency, including 
intelligence, rapid acquisition, research and development (R&D) 
and training, and bring a formal array of forces toward the 
single end of saving lives.
    Our soldiers, Marines, sailors and airmen deserve nothing 
less.
    Thank you.
    [The prepared statement of Mr. Berkson can be found in the 
Appendix on page 36.]
    Dr. Snyder. Thank you, Mr. Berkson.
    General Metz.

  STATEMENT OF LT. GEN. THOMAS F. METZ, USA, DIRECTOR, JOINT 
     IMPROVISED EXPLOSIVE DEVICE (IED) DEFEAT ORGANIZATION

    General Metz. It is a pleasure to appear before you today.
    Mr. Chairman, my opening remarks will be abbreviated. 
Therefore, I respectfully submit a more detailed written 
statement for you, for the record, and look forward to speaking 
in more detail during the question-and-answer period of today's 
hearing.
    Leading the Joint IED Defeat Organization is an honor and a 
genuine pleasure. I represent an organization staffed with 
personnel who passionately serve our men and women in uniform 
with a keen sense of urgency.
    I am often asked if the IED threat can be removed from the 
battlefield, and my answer is, ``No.'' In its most fundamental 
form, the IED is a lethal ambush. And men have been ambushing 
their enemies for thousands of years. Over those years, the 
ambush has become more and more lethal. However we can, and we 
must, defeat the systemic use of IEDs to strategically 
influence our citizens and leaders.
    To date, our success has been dramatic. In June 2003, the 
enemy generated more than one coalition-force casualty with 
each IED he emplaced. Today, he must emplace over nine IEDs to 
cause one casualty. The combined impact of that trend, and the 
continued emphasis on disrupting the capabilities of insurgent 
networks to generate, and then place, IEDs, has dramatically 
improved the survivability of our forces.
    As DOD's leader for counter-IED investments, we rapidly 
integrate the efforts of academia, industry and interagency, 
joint and allied forces, to focus and coordinate our 
investments. We are currently working on 301 counter-IED 
initiatives, and support a science-and-technology-investment 
portfolio of 78 technology projects.
    Additionally, we are currently responding to 87 Joint 
Urgent Operational Needs Statements from our warfighters, with 
109 separate initiatives. Our rapid acquisition process allows 
us to provide the warfighter with valuable lifesaving solutions 
in a period of 30 days to 24 months, depending on the 
complexity of the technology.
    During our first year, defeating the device was our central 
focus in order to save lives and limbs of our warfighters. As 
our positive impact grew along this line of operation, we 
increased our focus on the offense, attacking networks that 
finance, supply, recruit, construct, emplace, initiate and 
record IED attacks.
    Our focus on the attack of the network led us to developing 
the Counter-IED Operations and Integration Center, commonly 
called the COIC. The COIC is a paradigm change, because the 
warfighter defines what is needed from the bottom up. Requests 
for support from the COIC have grown significantly from 84 per 
month in 2007, to a current rate in 2008 of almost 170 per 
month.
    In January 2008, the COIC assumed the support role to the 
Baghdad Fusion Cell. Our efforts have led to the detention of 
66 high-value individuals. During the past 18 months, in total, 
the COIC has supported 213 missions, with a result in the kill 
or capture of 691 high-value targets.
    In order to effectively deliver new equipment and network-
attack enablers to our warfighters, we provide the force with 
comprehensive training support, as well. We provide this 
critical training support by rapidly synchronizing input from 
our deployed field teams, unit debriefs, and in-theater 
surveys, by migrating the results to all four services' 
training bases to ensure deploying warfighters are training 
against the most current threat, using proven tactics, 
techniques and procedures.
    We remain DOD's lead for strategic planning in order to 
develop goals and provide priorities to counter IEDs for the 
foreseeable future in the long war. We develop and publish 
DOD's counter-IED guidance to support the combatant commander's 
planning efforts, and continue to further refine and report 
DOD's counter-IED performance measures to the Department's 
senior leaders.
    Mr. Chairman, we are making great progress. However, in 
spite of our success, the IED remains the enemy's weapon of 
choice in Afghanistan and Iraq. We currently see over 1,400 IED 
events in Iraq and Afghanistan, and over 350 elsewhere in the 
world, per month. These numbers can go higher because the enemy 
can continue to exploit readily available technology and 
rapidly produce IEDs in an unending cycle of innovation.
    We must continue to apply pressure and make IEDs too costly 
to produce, and too risky to employ, by relentlessly attacking 
networks. The Joint IED Defeat Organization is organized to 
combat this critical threat.
    In closing, we look to the future. JIEDDO will aggressively 
continue to lead DOD's efforts to find and develop capabilities 
to counter IEDs and to enable attacks against the networks that 
employ them. We must continue to anticipate and innovate faster 
than a intelligent, ruthless and resourceful enemy.
    I attribute JIEDDO's success to the flexible funding that 
Congress has provided in the Joint IED Defeat Fund, the 
Department's support to the synergy of our effort, and the 
passionate professionals working in JIEDDO, both in the U.S. 
and deployed.
    I will do everything in my power to maintain and enhance 
that passion and sense of urgency of our personnel. Our goal 
remains clear: To defeat the IED as weapons of strategic 
influence.
    And I look forward to your questions, sir.
    [The prepared statement of General Metz can be found in the 
Appendix on page 40.]
    Dr. Snyder. I thank the gentleman.
    Next, Mr. Matthews.

 STATEMENT OF TOM MATTHEWS, DIRECTOR, WARFIGHTER REQUIREMENTS 
   AND EVALUATIONS, OFFICE OF THE UNDER SECRETARY OF DEFENSE 
                         (INTELLIGENCE)

    Mr. Matthews. Yes. Good afternoon, Chairman Snyder, Ranking 
Member Akin and distinguished members of the subcommittee. 
Thank you for the opportunity to testify on the commitment of 
the Office of the Under Secretary of Defense for Intelligence 
(USDI) to the JIEDDO defeat organization, and their important 
mission.
    I am Tom Matthews, the director of Warfighter Requirements 
and Evaluations, within the Office of the Under Secretary of 
Defense for Intelligence, Warfighter Support.
    I have been associated with JIEDDO and their efforts since 
July of 2004. Today, USDI continues to provide policy oversight 
of JIEDDO for the purposes of ensuring that JIEDDO receives the 
intelligence-policy support they need, relating to the IED 
problem.
    Over the years, as JIEDDO has evolved and matured, I have 
seen much value added in their efforts to unravel the IED 
network, counter the devices themselves, and train U.S. forces 
to face the greatest threat on the battlefield.
    We must continue to have a focused effort. I am pleased to 
be here with you today to answer your questions regarding 
intelligence support to JIEDDO. Thank you very much for your 
time.
    [The prepared statement of Mr. Matthews can be found in the 
Appendix on page 45.]
    Dr. Snyder. Thank you, Mr. Matthews.
    Mr. Beasley.

STATEMENT OF WILLIAM BEASLEY, DIRECTOR, JOINT RAPID ACQUISITION 
 CELL, OFFICE OF THE UNDER SECRETARY OF DEFENSE (ACQUISITION, 
                   TECHNOLOGY AND LOGISTICS)

    Mr. Beasley. Chairman Snyder, Congressman Akin, committee 
members, thank you for the opportunity to provide testimony 
today.
    I am Bill Beasley, the acting director of the Joint Rapid 
Acquisition Cell. The JRAC acts as the combatant commander's 
agent, addressing the joint urgent operational needs and 
immediate warfighter needs of their commands.
    Established jointly by the Under Secretaries of Defense for 
Acquisition, Technology and Logistics, and the comptroller, the 
JRAC receives, for timely action, joint urgent operational 
needs that have been certified by the combatant command, and 
validated by the Joint Staff. The JRAC engages with many 
organizations to provide solutions to the combatant command's 
needs.
    Since 2004, the United States Central Command has 
identified several hundred joint urgent operational needs, of 
which about half are counter-IED related. With some exceptions, 
the counter-IED joint urgent operational needs are provided by 
the JRAC to the Joint IED Defeat Organization for action.
    The JRAC ensures actions are accomplished through its 
participation in the Joint IED Defeat Organization's management 
and advisory boards, and supporting oversight of the 
organization for the Office of the Secretary of Defense.
    The JRAC has supported specific Joint Improvised Explosive 
Device Defeat Organization actions. In October 2005, at the 
request of the Deputy Secretary, the JRAC provided management 
assistance and oversight to meet the significant growth in 
United States Central Command requirements for counter radio-
controlled electronic warfighter jammers, commonly called CREW.
    This responsibility was transferred in 2007 to the Navy, 
once the CREW single-service manager was established. The JRAC 
additionally assisted the Joint IED Defeat Organization in 
receiving determinations by the Secretary of Defense to use 
rapid-acquisition authority to expedite crew-procurement 
actions.
    The JIEDDO has been an effective, an efficient and timely 
provider of capability, from my perspective, to the warfighter.
    This concludes my brief remarks. And I look forward to your 
questions.
    [The prepared statement of Mr. Beasley can be found in the 
Appendix on page 47.]
    Dr. Snyder. Thank you.
    General Kamiya.

 STATEMENT OF MAJ. GEN. JASON K. KAMIYA, USA, DIRECTOR, JOINT 
      TRAINING DIRECTORATE (J7), U.S. JOINT FORCES COMMAND

    General Kamiya. Thank you, sir.
    Mr. Chairman, Ranking Member Akin, and members of the 
subcommittee, on behalf of General Jim Mattis, as the commander 
of U.S. Joint Force Command (USJFCOM), thank you for inviting 
me to appear before you today to discuss the many ways that 
USJFCOM and JIEDDO support each other in the execution of joint 
training.
    I believe that our two organizations have worked very hard 
in the past several years, in concert with the combat commands 
and services, and have obtained much synergy in providing 
joint-force commanders and staffs the most realistic training 
environment possible, to meet the challenges posed in defeating 
IEDs as a weapon of strategic influence.
    But I believe that there is much more than can be done. As 
we look to the future, and as IEDs and other asymmetric threats 
continue to evolve, I believe that it is only natural for JFCOM 
and JIEDDO to expand and formalize the training and support we 
provide each other.
    We look forward to future discussions that will lead to 
clear definition of what the support will entail, and its 
attendant resource requirements.
    Thank you, Mr. Chairman. I look forward to your questions.
    [The prepared statement of General Kamiya can be found in 
the Appendix on page 49.]
    Dr. Snyder. Thank you all for your testimony. Our 
timekeepers are in the back there, and we will put ourselves on 
the five-minute clock. And I will begin the questioning.
    General Metz, where do you see the issue, currently, of how 
other asymmetric threats fit into JIEDDO?
    General Metz. Well, I think the enemies of our great 
country recognize they--as you mentioned earlier, they are not 
going to meet us in the deep blue sea or the light-blue sky, or 
in the maneuver battlefields that we have been so successful 
at. He will take us to a regular warfare the use those 
asymmetrical weapons.
    So as he evolves from the IED, I think that we will be in a 
position to help the Department move in that direction--and 
working hard to--to figure out how to get ahead of the enemy in 
that thought pattern. We may not pick it right, but we would 
like to be on the street corner--his next asymmetric weapon, in 
order to go ahead and begin to design the defeat of those 
future weapons.
    Dr. Snyder. Well, two follow-up questions: One is that the 
thought has been that the effectiveness that JIEDDO has had has 
been because of its very laser-like focus on IEDs.
    If you start expanding the list--you and I could sit down--
everybody in this room would come up with a list of potential 
other asymmetric threats. And I will bet, with a crowd like 
this, we could come up with a list of about 80, 207--I don't 
know what the list would be.
    Are you at risk of kind of drifting into losing that laser-
like focus on that one threat of IEDs, or is there going to be 
a formal decision-making process that will be transparent to 
the Congress, transparent to all the folks involved in issues, 
that will say, ``We have now made a decision that it is no 
longer going to be just an IED-defeat organization. It is going 
to be IEDs and drug use. It is going to be IEDs and cyber-
threat''?
    I mean, what is the process going to be, or is it going to 
be a drifting into other areas?
    General Metz. Sir, I don't think we will drift. We have 
achieved our success because of that laser focus. And as you 
have correctly pointed out, if we open the aperture too wide, 
too quickly, we will lose that laser focus.
    The Department directive that gives me my mission statement 
and all the specified task--it is very clear that the IED is 
what we need for its strategic influence.
    So I think that the first step would be the Department 
would issue a new directive that would redefine. And I am 
confident we would be very careful not to open the aperture 
very much, so that we could continue the laser focus.
    But that laser focus has taught us a lot, especially about 
attacking human networks. And I think there is a potential to 
open the aperture a little bit, but certainly not enough that 
diffuses our effort and lets us wander too far. We need to 
maintain that synergy and laser focus on IEDs, currently, but 
maybe an asymmetric weapon, in the future.
    Dr. Snyder. Your discussion about other asymmetric 
threats--is that currently a discussion topic? There has not 
been any, in your words, ``widening of the aperture,'' to this 
point?
    General Metz. No, sir. That discussion is very informal. 
And one that I engage in very cautiously, because I do not want 
to lose the focus that we have gained with the IED.
    Dr. Snyder. General Kamiya, in your written statement, you 
list some potential concerns about any changes in how JIEDDO is 
structured. And I forget how you termed the phrase about the, 
oh, ``inherent risk to the warfighter in restructuring JIEDDO 
during a time of direct engagement with the enemy.'' General 
Metz has used the term several times here today, ``the long 
war.''
    If we put on hold all things that changes we think 
government might need to do, because we are involved in a war, 
we could be trying to declare a time-out for a long time. I 
mean, I don't think that is a very good reason not to want to 
do things more efficiently.
    Now, you may have concluded that there isn't any reason for 
change. And I accept that as one of the options. But to say 
that because we are engaged in direct combat, we should not 
consider changing structure--that, you know, creates the 
certainty that we will have some problems--perhaps not with 
JIEDDO, but certainly other areas of government, if we are 
going to be resistant to any change because we are at war.
    How do you respond to that?
    General Kamiya. First of all, let me clarify that the 
inherent risk in changing what JIEDDO's clear focus is today is 
a consideration. It is not a reason to not move and change.
    It is a consideration that must be accounted for in terms 
of, ``Where does the risk lie, and for how long?'' And for 
planning purposes, we just want to make sure those questions 
are answered as we move forward.
    Dr. Snyder. My time is up.
    Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman.
    The hearing we are having today, to some degree, follows in 
the footsteps of one that was a more closed hearing. I think 
that the thing that becomes kind of a question is, you start 
with 12 people. They end up with 3,600 people.
    How, exactly, does that work? And do we have, within the 
Army, or within the military, kind of these specialist 
organizations? How many of them do we need, and how does this 
thing fit in the funding? How does it work in terms of the 
overall organizational structure?
    I think, obviously, the first thing to do, when you have a 
serious problem, is to organize to fix a problem and get it 
under control, which you have all done a great job of doing. 
The question, then, is, later: How do you integrate that, and 
how do you put that together? How do you fund it, and, 
structurally, how do you define exactly where the limits and 
sides of the thing are? And how do you not run into the problem 
that we have thousands of examples here at our capital of all 
kinds of overlapping and duplication?
    And so I think that was part of the chairman's comments. 
They are certainly some of mine--kind of a question mark. How 
does that fit in in the future? That is why I started with a 
new administration.
    And Mr. Berkson, this--obviously, you don't have to solve 
this problem, you know? Or probably don't, anyway. But, still, 
you have had a good perspective, and you are taking a look 
future-wise. Your job is to be planning out as to how this 
works.
    If there are any comments along those lines, it would be 
helpful to us, I think.
    Mr. Berkson. Thank you, Congressman.
    You have highlighted a bunch of the challenges of this 
organization. First of all, you have given--the Congress has 
given--the Department a very rare----
    Dr. Snyder. Mr. Berkson, would you pull that microphone 
right close to you?
    Mr. Berkson. I am sorry.
    Dr. Snyder. Thank you.
    Mr. Berkson. The Congress has given the Department an 
opportunity, through the JIEDDO fund, to, literally, work 
inside the enemy's time loop. We have taken that so seriously 
as to have elevated its oversight to the Deputy Secretary, and 
to keep them laser focused on what you have authorized us to 
do.
    The challenge will be, as we go forward--as those threats 
emerge and evolve, we may, in the future, have to look outside 
of IEDs as that asymmetric threat that is killing our people. 
And this is the challenge that we have been dealing with, as we 
think about the future.
    We have funded this organization. We think it should be 
institutionalized into the future. But, again, me telling you, 
in 2013, what exact technologies, training, organizational 
solutions, intelligence integration, we will have to have, is a 
very difficult task. So this is the dilemma that we think about 
as a country.
    Mr. Akin. Do you see us transitioning, in a sense, from 
IEDs to other types of asymmetric threats that are similar 
characteristics? Do you see it expanding that way?
    Mr. Berkson. As they have ever come up, we have been very 
quick to take them out of the charter of JIEDDO. So, so far, 
things other than IEDs are not in JIEDDO's charter, one, and 
two, the primary threat to our troops on the battlefield is 
this particular weapon.
    If you think about the things needed to push in another 
direction, it would be the enemy has found an alternative 
asymmetric tool that has deadly effects on our people, and 
that, again, we need to focus and shift on.
    But I think all three of those have to come together at 
once; the threat, its impact, and our need to respond to it to 
save lives. And, again, if any of those three are missing, it 
is difficult to imagine that you would push them toward another 
direction, until we actually needed to deal with it.
    Mr. Akin. Thank you.
    Thank you, Mr. Chairman.
    Dr. Snyder. Mr. Bartlett, for five minutes.
    Mr. Bartlett. Thank you very much.
    And thank you for your testimony.
    Our defense establishment faces a difficult decision. That 
is, ``Where do we spend the limited dollars that we have in 
preparing to better prosecute the kinds of military activities 
we are engaged in now, which involves enemies that, in no way, 
even approach being a peer--or, to invest in the kind of 
equipments that we will need if, in the future, we have a peer 
and we, certainly, could have a peer in the future?''
    The granddaddy of all asymmetric weapons, of course, is a 
nuclear-generated electromagnetic pulse (EMP). And this isn't 
just the asymmetric weapon of choice for a peer. It is also a 
potential weapon of choice for a relatively small country, or 
even a non-state entity. Because all you need is a trans-
steamer, a Scud launcher, which can be purchased on the open 
market, and a crude nuclear weapon.
    The ultimate nuclear weapon, of course, was described to us 
by the Russian generals, who told our EMP Commission that the 
Soviets had developed, and they had a enhanced EMP weapon that 
would produce 200 kilovolts at the center, which, if detonated 
300 miles high over Iowa or Nebraska, would produce an EMP lay-
down of 100 kilovolts per meter at the margins of our country.
    That, I think, is considerably higher than anything we ever 
built to, or tested to. During the Clinton years, because money 
was short, we waived EMP hardening on almost all of our new 
weapons systems.
    If, in battle, there was a large EMP lay-down, like 100 
kilovolts per meter--it could be very much higher than that at 
the center--how much warfighting capability would we retain?
    Mr. Berkson. Congressman, I am aware of some of the work 
done by the EMP Commission. The exact response to, and our 
system's capabilities against EMP are classified, frankly. And 
we would have to have a kind of a closed session to actually 
discuss that.
    So I would need to follow up with you on that.
    Mr. Bartlett. What I am told for an open hearing like this, 
is that our command control, we hope, is reasonably hardened. 
That is like me having my brain and spinal cord work okay, but 
no arms and legs. I am not sure that hardening command and 
control when you have got nothing to control, after a robust 
EMP lay-down, makes much sense.
    Would you agree?
    Mr. Berkson. At the level of classification we have here, I 
can't really respond to the exact capabilities of our weapons 
systems in an EMP situation.
    Mr. Bartlett. And as vulnerable as our military is, the 
commission found themselves very much concerned about what 
happened to our national infrastructure. They issued a second 
report, focused primarily on the national infrastructure.
    How do we make the decision as to where to spend our 
precious dollar? And a robust EMP lay-down, nationwide, would, 
as the EMP Commission said, ``essentially end life as we know 
it.''
    There is a book that is about to come out, called, ``One 
Second After,'' which is a very interesting one-year scenario 
about what might happen. How do we determine what the real 
priorities are?
    Isn't this kind of an example of tyranny of the urgent? 
Clearly, these things we are doing now are urgent. The tyranny 
of the urgent--almost always, the urgent sweeps the important 
off the table. How do we make these decisions?
    Mr. Berkson. Sir, I am the executive secretary of what is 
called the Deputy's Advisory Working Group. We are a group of 
folks that support the Deputy Secretary; includes the under 
secretaries of the Defense Department, and the major service 
players, both military and civilian.
    And, literally, two to three times a week, we meet to 
discuss all of the resource-allocation decisions for the 
Department. We receive classified briefings. We talk about the 
various tradeoffs that are involved. And we have deliberations 
that, you know, are very heated and contentious. In fact, my 
major role in that process is bringing facts and information to 
the table to weigh those balance and trades.
    So our process is that. We look at those various tradeoffs. 
We, then, make our recommendation to the president. And he 
submits them to you. And that is how the process works from our 
side.
    Mr. Bartlett. Thank you, Mr. Chairman.
    Dr. Snyder. Mr. Johnson, for five minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    And since I just arrived, I have not had the benefit of 
hearing the testimony that has been given. And so, therefore, I 
will decline to ask any questions.
    Dr. Snyder. Thank you.
    Thank you.
    I wanted to ask--I will start with General Metz--but anyone 
else who wants to respond: What is your endpoint? Very 
specifically, the IED Defeat Organization--what is the endpoint 
for when you say, ``Mission accomplished. We have got 3,600 
people. We will transfer 3,500 of them to other 
organizations''?
    General Metz. Sir, that endpoint, in my mind, would be the 
defeat of the IED in Afghanistan and Iraq--its strategic 
influence--as my mission statement from the DOD directive 
indicates.
    I would certainly fall a little bit short of an implied 
task, which would be to ensure that the organization was ready 
to move on to that next potential asymmetric threat.
    But I think, given the current DOD directive that asks me 
to lead, advocate and coordinate all of DOD's efforts against 
the IED as a strategic weapon, the end game would be--is when 
we defeat it.
    Again, as I said in my opening statement, we won't run the 
ambush off the battlefield, but I think the systemic use of the 
IED as a strategic weapon can be defeated by making it so risky 
to those in the network--to their life, limb or capture--and 
the cost to the network constantly going up--that they move on 
to something else.
    So that would be the end game that I would see.
    Dr. Snyder. There is not some measurable goal, or--you, in 
your statement, specifically mentioned the drop in numbers of 
attacks in Iraq, and the increase in Afghanistan.
    You are not watching those numbers or have articulated a 
specific number at which you would say, ``That is----''
    General Metz. No, sir. We have not, because I think that 
would be dangerous, given the influencing fact of just a few--
--
    Dr. Snyder. Right.
    General Metz. It would be dangerous to establish a number 
just above or below that----
    Dr. Snyder. Right.
    General Metz [continuing]. Breakpoint.
    Dr. Snyder. And, I think you are right.
    Do any of the rest of you have any comment on that issue 
of, ``What is our endpoint?'' You all should feel free to jump 
in to any of these questions, by the way.
    Mr. Beasley. Sir, I would just say the--you know----
    Dr. Snyder. [OFF MIKE.]
    Mr. Beasley. It is largely a force-protection measure. So 
as long as we have troops in contact and in risk, in harm's 
way, you need to continue that effort for, if nothing else, the 
force-protection aspect of it.
    Dr. Snyder. Some of combatant commanders believe that 
JIEDDO is a temporary organization to rapidly focus on this 
problem of IEDs, but that operations and funding should be 
transferred to existing organizations, when appropriate.
    How do you respond to those thoughts?
    General Metz. Sir, my response is that, within a couple of 
months of replacing General Meigs, the Deputy Secretary 
reiterated that we would remain in our current form. We would 
continue to work for him. We, already, have worked some money 
into the base budget.
    I took that as--in my own mission analysis--that we were in 
a long war, and this was going to be a tough weapon system to 
beat. And I believe that we must continue the passion that we 
have got to beat this particular weapons system. And I think we 
are on that path.
    Dr. Snyder. Any other comments?
    Mr. Berkson.
    Mr. Berkson. I guess I would amplify that. I looked, on the 
app of the Deputy Secretary, at this particular question. We 
have been looking at this question and evaluating it on an 
ongoing basis.
    The challenge in an organization with three-plus-million 
people and $500 billion is you are going to have seams between 
functions, between organization services. This organization has 
been set up to optimize a defeat of IEDs. So the seams that are 
created for this structure are between services or functions or 
other pieces of the organization.
    We looked at, and continue to evaluate, the pieces of 
JIEDDO, and where it might fit, and how it would connect, and 
come back to the concern that optimizing for defeating IEDs and 
their networks is the key issue we want to organize this 
particular function for right now.
    So you take those various tradeoffs, and you say, ``Right 
now, it makes sense for the Department to be optimizing for 
that end, given the impact that these are having on our 
forces.''
    I think as that either changes, or other requirements 
emerge, that is a continuing piece of work we will be looking 
at.
    Dr. Snyder. Mr. Akin.
    Mr. Akin. It was, I think, mentioned in the previous 
hearing that one of the things that you had done with the 
organization was to reinforce the structure with people that 
had had, actually--like detectives from police departments and 
people who were used to doing, basically, criminal 
investigation--that type of research and that type of logical, 
piece-by-piece thinking, in order to try and move from evidence 
to find a direct suspect.
    What percentage of people in your organization have that 
kind of a background, and do you have enough people to draw 
from?
    General Metz. I can get to you the exact percentage. Of an 
organization of over 3,000, it will be a small number. But that 
small number is making a tremendous impact.
    And you are referring to the law-enforcement program, where 
we have put members of the law-enforcement community of 20, 30 
years' experience, and marry them with a brigade commander or a 
Marine regimental commander, so that they can bring that 
experience to the battlefield, because each one of those 
individual IED events is certainly more like a criminal event. 
And, therefore, they can use that tremendous experience that 
they have, that sixth sense of knowing where to focus the 
investigation.
    So the number is a very small number, but I think we are 
adequately sourced with those professionals at the brigade and 
regimental level. And the program is one of our most successful 
programs.
    Mr. Akin. Just to follow up on that, is a significant piece 
of information the various aerial assets that we have that 
would help provide some historic information as to who has been 
visiting a particular place at a particular time?
    General Metz. Yes, sir.
    We started with the Joint Surveillance Target Attack Radar 
Systems (JSTARs) and the movement target indicators and, often, 
could use the archived data from that. With other initiatives 
now, with full-motion video, and we can get even greater 
resolution, we are finding the value of the archived data that 
the Counter-IED Operations Integration Center can mine for us 
is helping us solve a lot of very tough problems.
    I believe that the data-mining and turning the 
information--using it for knowledge for the warfighter is one 
of our real successes.
    Mr. Akin. Thank you.
    And thank you, Madam Chairman--I mean, Dr. Chairman. Excuse 
me.
    Dr. Snyder. I didn't get enough sleep last night. I just 
couldn't come up with a quick comeback. I apologize. You gave 
me a straight line. I just couldn't respond to it.
    I want to ask about the issue of oversight and the 
structure, and you and I talked about this the other day, 
General Metz. But the question is oversight by the Deputy 
Secretary of Defense sufficient as, perhaps, we define 
oversight?
    What do you all--let's start with you, Mr. Berkson, and 
maybe hear what other people have to say.
    Mr. Berkson. The oversight, again, the Deputy provides this 
is, literally, a monthly meeting, at least, to go through all 
of the efforts of General Metz and the organization.
    He looks for the priorities. He looks for the metrics of 
performance. He evaluates the programs and proposals that are 
being made. He looks at the budget and how both--it is being 
executed. He looks at the program's effectiveness. So it is a, 
you know, an ongoing review at the--again, at the Deputy's 
level, from a management standpoint.
    And, again, given----
    Dr. Snyder. Some of us might be a little skeptical. I think 
he is a remarkable man, but there is a lot on his plate right 
now. And you all are a relatively new, somewhat fluid 
organization.
    And when we think about oversight, we think about finding 
the things that are not going right, that some people out there 
amongst your 3,600 employees may not want General Metz to know 
about.
    And so the question becomes: Is the monthly meeting 
sufficient to be doing that kind of evaluation--assessment--
have the time to troubleshoot when something flares up? That is 
the question we may have on this side.
    Mr. Berkson. Yes, I mean, the first line of defense on that 
is a three-star general, whose job is to focus 100 percent of 
his day on that effort, who has combat experience, and has led 
groups of people and managed money.
    And so I think our first--his first--check in the system is 
a competent and experienced leader overseeing the day-to-day.
    Dr. Snyder. Right.
    Mr. Berkson. At the next level up, again, there are checks 
and balances in the Defense Department, as you are well aware. 
And if there are issues or questions of malfeasance, we have 
inspector generals, we have audits, we have contract audit 
agencies, a number of mechanisms.
    From the fiscal and programmatic oversight, the services 
execute most, if not all, of the funds that JIEDDO programs. 
So, again, each of the service-acquisition agencies and 
executives has a specific statutory and regulatory requirement 
to certify as to the effectiveness of those programs.
    So, while, you know, the deputies' once-a-month interaction 
may not seem a lot of oversight, given all of the other checks 
and balances we have in the system, it is, I think, a quite 
good one. And, again, relative to the priorities of the 
Department of Defense and the Nation, this is what is killing 
our troops, and that is why he needs to spend time on this, and 
why we think it is important----
    Dr. Snyder. That is a fair statement.
    When I hear you--by the way, Mr. Berkson, it is not that 
you should lay awake at night worrying about this. Whenever I 
hear the word ``synergy''--I think you used it--it makes--I get 
cold chills. I think whenever somebody uses the word 
``synergy,'' they are covering up something--there is some kind 
of nebulous little world of people not quite sure what their 
authority is or what they are supposed to be doing, and so we 
are going to call it ``synergy,'' and we are going to kind of 
fuse our efforts together. So I get nervous.
    But, you know, I think, you know, the staff, here, spent 
quite a bit of time trying to sort this out. And it is hard for 
us to figure out exactly who does what. You know? I mean they 
have met with people. It is a hard thing for us to sort out, 
when you start talking about, ``There will be military branches 
that spend the money,'' and, well, are those--you know, what 
kind of relationships are those? And who follows the money?
    Now, this may be just the nature of government, but it 
seems like you all are a special breed, right now, for trying 
to do something that we all agree is very, very important.
    Do you envision that, as we move along, we will move in the 
direction of more contracts, less contracts--to the work 
being--migrating more into the military side of government, the 
civilian side, the ratios staying about the same? Any of you 
had any thoughts about that?
    General Metz. Sir, I have thoughts about that, because one 
of my responsibilities is to lead and look deep in time, and 
broad in space. I think that much of the low-hanging fruit, 
especially in our line of operation that we call ``Defeat the 
Device,'' has been harvested. Nevertheless, we are still 
looking for those answers to very complex, technological 
challenges.
    So I think because we have found things that did not work, 
because we have turned away some proposals that we knew, from 
our experience, would not work. We have archived that. And so 
as good ideas come in, I am--there is an ever-thicker filter 
for them to pass through.
    And so I think there probably will be less contracts as we 
refine our ability to understand the different initiatives that 
may influence defeating the IED.
    Back to your earlier comment, I would add that the DOD 
directive gives me the authority, under $25 million, to make 
decisions. And I think the experience that I have gained over 
my career allowed me to carefully and accurately make those 
decisions.
    Above that number, there is a senior resource-steering 
group that must all be coordinated with to approve, before it 
goes to the Deputy Secretary for a final approval. That group 
includes many of the principals in the Office of the Secretary 
of Defense. It includes the services.
    So, virtually everything we do gets a very transparent and 
thorough vetting before we make final decisions; having said 
that, we have a very fast process that makes that work for the 
warfighter. And my experience tells me we have got the right 
checks and balances in place to protect the resources that you 
have given us.
    Dr. Snyder. Mr. Conaway--five minutes.
    Mr. Conaway. Well, I thank you.
    I apologize for just walking in, and will try not to plow 
ground that has already been plowed 11 dozen times.
    As we look at Afghanistan and the IED threat there, there 
are some public reports about troops there wanting vehicles 
that are more nimble than the Mine Resistant Ambush Protected 
Vehicle (MRAP) because it just doesn't work in the Afghani 
terrain. It works well, I guess, in urban settings, and those 
kinds of things.
    Does that redesign, or addressing that issue, fall under 
what you guys are doing? Or is that entirely somebody else's 
line of work?
    General Metz. Sir, fundamentally, we have gotten away from, 
in my organization, the platforms, whether they are ground 
platforms or air platforms. But we do help coordinate. And, 
certainly, the soldiers that are fighting in the Afghan terrain 
probably do need a lighter, more maneuverable vehicle than the 
MRAP.
    Having said that, though, I think the troops, anywhere, are 
appreciative of the MRAP, because it has, clearly, saved 
soldiers----
    Mr. Conaway. Yes. No. There was no question, I mean, no 
implication that the MRAP wasn't doing its job. It is just that 
they can't go as far in an MRAP as they might--as something 
more nimble--could get that further with that protection--is 
what they want. No criticism meant on the MRAP.
    Addressing the financing system--I mean, how do we--does 
that fall under your purview, where we--not our financing, 
but--the way IEDs are being financed in both theaters--going 
after those players?
    General Metz. Yes, sir. We watch and, certainly, work at 
the levels at which my organization can work, and coordinate 
with the interagency. But financing networks that can put out 
the vast quantities that were put out in late 2006 and through 
the first half of 2007--those quantities required a lot of 
money.
    And so we, clearly, watch the finances, which is very 
closely related to the supply chain. And we are watching the 
supply chain very carefully. But much of that is in some of the 
interagency, that we could talk about at a closed hearing.
    Mr. Conaway. Thank you, Mr. Chairman. I will yield back.
    Dr. Snyder. Mr. Johnson, for five minutes.
    Mr. Johnson. Thank you.
    I would like to know what role--and I hope that this has 
not been gone over yet--what role should Congress play in 
improving our Nation's ability to combat IEDs and other 
asymmetric threats?
    General Metz. Sir, I think that role is being executed 
right here, today--the oversight, so that we are transparent 
with the resources that the taxpayer has given us. We owe that 
transparency, certainly, to the degree in the open hearing that 
we can share that.
    There was some criticism, I think, constantly, about my 
organization, that we may not be transparent enough; that we 
often hide behind the classifications. I have looked at that 
very carefully, and I have made a personal decision that I will 
not give the enemy any advantage from my discussion of IEDs.
    Having said that, with the Congress, with industry, with 
academia, with whomever I am working, I want to be as 
transparent so that we get all the help we can get. And so your 
oversight is one way that I think is actually helping us to 
ensure that we are headed down the right paths.
    One of the very powerful tools that we are given through 
the Joint IED Defeat Fund is--are the resources that are not 
tagged to a particular function, like research and development, 
or procurement, or operations, so that we have the flexibility.
    And that flexibility is a very powerful tool when you are 
fighting an enemy that is not respectful of our budget cycle; 
an enemy that is innovative, very intelligent, ruthless. And in 
an information age where the sharing of that information is the 
speed of light--so the flexibility that--the funds that you 
have given us is a very key part of our success.
    Mr. Johnson. Thank you, sir.
    General Kamiya. Sir, from a joint-training perspective, I 
can tell you that my organization and JFCOM, at large, takes 
increasing the return on investment--making every dollar 
count--very, very seriously.
    For us, as we look to the future. I have already described 
in my written statement the many ways in which USJFCOM and 
JIEDDO support each other in joint training. As we look to the 
future, though, there are opportunities to expand this 
partnership, and, again, even given the current resource 
levels, to multiply, in my judgment, the return on investment.
    Let me give you a couple of examples. First of all, we all 
acknowledge that JIEDDO is developing a training COIC that will 
replicate and be a portal, if you will, to introduce the array 
of capabilities and lessons learned, that JIEDDO is learning as 
an organization--into the training environment.
    We are, currently, engaged in dialogue with JIEDDO and the 
Army to make sure that this training COIC does not become 
overly service-centric, that it addresses the C-IED, that it 
addresses the counter-IED training requirements of multiple 
services, and can, in addition to what support it. It can 
provide our JFCOM Mission Rehearsal Exercise Program, primarily 
designed for joint forces going to the CENTCOM Area of 
Responsibility (AOR)--it can, over time, help us with exercise 
planning and support.
    We provide the support to two exercises per COCOMs each 
year. So you can see how this can eventually lead to JIEDDO 
support to a multiplicity of combatant commanders, globally.
    The second area where we believe that we can, perhaps--
would provide a greater return on investment--is for the way 
our organizations provide support to service-training programs. 
We acknowledge the way JIEDDO's Joint Center of Excellence at 
Fort Irwin helps the services meet C-IED training requirements.
    Inside my organization, we also manage, on behalf of the 
Department of Defense, a program known as a Joint National 
Training Capability, that is designed to provide service-
training programs with a joint context. And let me give you a 
couple of--an example of where, sir--Mr. Chairman--using that 
word ``synergy,'' if I may--exists.
    In fiscal year 2007, the JIEDDO's Joint Center of 
Excellence and our Joint National Training Capability Program 
partnered together to field a closed cellphone network at the 
Joint Readiness Training Center in Fort Polk, Louisiana.
    That capability was primarily designed to defeat the 
network; to replicate, in a closed way, cellphone capabilities. 
However, when you look at the broader array of training 
requirements across the services, that same closed-loop 
cellphone network can also provide opportunities to enhance the 
Army's opposing-forces capability at the Joint Readiness 
Training Center, as well as, potentially, meet some Joint 
Intelligence, Surveillance, and Reconnaissance (ISR) 
Capabilities.
    So, again, while the leading effort was to counter and to 
enhance C-IED capabilities, if you have someone like my 
organization, like the Joint National Training Capability 
Program--look--and a much broader array of a joint task, you 
can easily see how a C-IED investment for the same amount of 
money can impact on other service requirements.
    So those are two examples of the way, from a joint-training 
perspective, we can enhance the Department's and Congress's 
return on investment.
    Mr. Johnson. Thank you.
    Dr. Snyder. I want to ask about the Strategic Command 
(STRATCOM) study on the human-network-attack part of this. They 
identified a significant number of DOD initiatives, but 
recommended there be some kind of a champion to coordinate. And 
I assume that you all have had some discussions with them.
    Do any of you have any thoughts about who should be that 
champion?
    Mr. Berkson. Right now, that is the vice chairman, as the 
former STRATCOM commander----
    Dr. Snyder. I am sorry. Could you speak a little----
    Mr. Berkson. The vice chairman, as the former STRATCOM 
commander, surfaced that issue a number of, I think a couple of 
years ago. And we have been looking at it. I don't think we 
have come to a determination of the management approach going 
forward, for that.
    Obviously, JIEDDO has a big role in that, and probably 
plays one of the largest roles in having expertise on 
countering human networks, from the standpoint of both 
expertise and the dollars being invested. But as far as I am 
aware, we haven't made any change or coordination--agent or 
such for a human-network attack.
    Dr. Snyder. Mr. Beasley, I wanted to ask about acquisition. 
Probably Duncan Hunter, who, at that time, was chairman of the 
committee, was very concerned about. During a time of war, we 
felt like it was probably both our faults things couldn't be 
bought as quickly as they needed to be bought to respond to the 
needs of the folks--on the men and women on the ground in Iraq 
and Afghanistan.
    And do you think that the models that you all have come up 
with--that there is lessons to be learned throughout the 
acquisition process, on how to move things along quickly, and 
still get the quality and delivery times that you all want?
    Mr. Beasley. I believe there are many, many lessons we can 
learn, and----
    Dr. Snyder. Is your mic on there, Mr. Beasley?
    Mr. Beasley. Yes, it is. Can you hear me?
    Dr. Snyder. Yes. Yes, thanks.
    Mr. Beasley. I do believe there are many lessons we can 
learn. In fact, we are taking on a project at this moment--Lean 
Six Sigma-related methodology--to look at the rapid-acquisition 
processes, which I will describe as urgent-needs processes. And 
I will explain that in just a moment--within the Department, to 
include the four services, special operations commands 
(SOCOMs), JIEDDO, and my own Joint Rapid Action Cell (JRAC) 
process, to determine if there are common lessons that we can 
apply across the Department to more effectively do the rapid 
acquisitions, and also export those recommendations to the 
defense acquisition system.
    Back to the urgent needs, we say ``rapid acquisition.'' 
Generally, we are in the urgent-needs process, in that other 
organizations----
    Dr. Snyder. I think that is a better name. Yes.
    Mr. Beasley [continuing]. Actually acquire the capability.
    Dr. Snyder. You are going to come up with some kind of a 
formal, written document that--what you learned? Is that what 
your end point is--so you are studying?
    Mr. Beasley. We will make recommendations to the Under 
Secretary of Defense AT&L. The----
    Dr. Snyder. You anticipate there may be some 
recommendations for Congress, as far as statutory changes that 
need to be made? Or do you have a sense of that yet?
    Mr. Beasley. We haven't gotten that far yet. Clearly, that 
is on the table, if we can see some changes that could be made. 
Again, one of the things we found in the Department is the 
Department has many, many authorities that it can't exercise, 
to do things rapidly. It is getting the will of the people who 
actually have to execute those authorities to take the 
initiative to execute them.
    It is often difficult, at the low-level program manager, 
individual contracting officer, to expedite actions when you 
need them. In fact, I carry around a letter from the other 
body--Senators Biden and Bond--that starts off with 
``unconscionable bureaucratic delay in the Department,'' and 
``rapid acquisition.''
    I remember those words of that letter. And my objective is 
to cut through the bureaucracy and get the capability to the 
warfighter. I don't see that bureaucracy is an inhibitor within 
JIEDDO. They are organized to address the needs of the 
combatant commands that they are supporting.
    Dr. Snyder. Thank you. I hope you will--and I am sure you 
will--share with us anything you think we ought to know about 
it--that we might be helpful with in the process.
    General Metz, I was fumbling through my notes here. Was it 
3,600 personnel that you think you--was that the number you 
used--3,600 personnel?
    General Metz. Yes, sir.
    Dr. Snyder. Now, of those 3,600 personnel, how many of them 
are contract personnel?
    General Metz. Sir, a large majority of them. I can----
    Dr. Snyder. Thirty-one hundred or so?
    General Metz. Sir, I can provide a matrix that outlines all 
the military, government, civilians, contractors that are on 
the joint manning document, and contractors that are hired to--
for particular projects, all the way to those that are hired 
for a particular initiative. But we have got all that data. And 
we can certainly provide that.
    Dr. Snyder. Is that probably about the proportion in the 
2,600 or 3,000 range of contractors, out of that total number?
    General Metz. Yes, sir. That is pretty close.
    Dr. Snyder. Now, how do you all evaluate, or do you have a 
process for looking at those numbers of contractors and 
concluding, ``Well, wait a minute. This is probably an 
inherently governmental function that should more properly be 
handled through the normal hiring process.'' It would probably 
be cheaper for the government through the normal hiring 
process.
    Do you make that determination? Did you make that 
determination in all 2,600 or so contractors?
    General Metz. Sir, I would like very much to move that 
ratio much more in favor of uniformed and government civilian. 
And that effort has been improving ever since--even before I 
took the job. I know General Meigs was concerned, and had 
started that effort.
    But we still have, because of the rapid nature at which we 
are doing business, a need to be able to be flexible and be 
able to use the money to hire the people to do something very 
quickly for us.
    Again, I think it is an issue--a rightful issue--to make 
sure we have got the right government control. And I am 
watching that very carefully. And I think we are moving in the 
right direction, albeit maybe not as fast as we would like to. 
But I think we have got a clear definition of where we want to 
go, and improve that ratio.
    Dr. Snyder. Let me see if anyone else has any questions.
    Mr. Akin.
    Mr. Conaway.
    Mr. Johnson.
    I wanted to ask, with regard to the COIC and JIEDDO--did--
in your all's minds, do those need to always be linked, or do 
you see it as they could go separately, or are there advantages 
or disadvantages that--talk to me about that, General Metz.
    General Metz. I have often described the COIC as a mega-
initiative. You know, we began to develop the COIC based on the 
specified tasks in the DOD directive that we needed to maintain 
and joint-operation and intelligence picture.
    As we developed that, we learned that mining the Web pages 
of all those different commands is a very timely and energy-
consuming effort. The COIC was able to develop abilities to go 
into databases inside the DOD and bring that information to 
analysts.
    Great young men and women, many of whom were contractors, 
but working for the government, developed algorithms that 
allowed us to mine that data and create knowledge for the 
warfighter. So in the near term, I would strongly recommend 
that the COIC remain part of my organization.
    As it develops its ability to fight human networks and 
becomes very mature, there could be a place downstream, where 
you may want to look at it as an entity that could--to work for 
someone else.
    But I would be very cautious. Because of that razor look at 
IEDs, we are learning so much about fighting these human 
networks, that I would keep it, you know, certainly for a 
period of time, under the DOD directive that forces us to look 
at the IED.
    Dr. Snyder. You had mentioned earlier the flexibility.
    Maybe it was you, General Kamiya.
    Or maybe it was you, General Metz--that the flexibility in 
moving money around--I think it was in response to Mr. Johnson 
about that--that you would have flexibility from Congress, 
moving money around.
    Have you had situations where you, in moving initiatives 
into one of the branches of the military--that because they 
have different ways of budgeting, and more--less flexible 
funding methodologies--that it has caused some problems for 
getting the same job done? Or have you had occasion where you 
just decided not to make the move because of the lack of 
flexibility? Has that been a problem?
    General Metz. Sir, I think that--and I will let Mr. Berkson 
add to my comments. This is a subject that is constantly on my 
mind, and constantly being worked, because we are working 
within--because of the three-year money, we are able to work 
with great flexibility. As our enemy is working inside our 
budget cycle, so are we.
    When we mature an initiative, there will always be some 
friction with the services as that good initiative needs to be 
picked up by the services. I don't envision the Joint IED 
Defeat Organization being a sustainer of a particular, 
especially material, initiative, and many of the non-material 
initiatives for very long.
    But because of the budget cycle, we need to make decisions 
as we mature that initiative to work with the services on when 
they are capable of picking it up. And in many cases, either 
supplemental dollars for us to carry it, to when they can pick 
it up in their program, or they pick it up on supplemental 
dollars to eventually drive it into their program. But there is 
going to be a natural friction because the enemy is making 
decisions inside our budget cycle.
    And that friction, I think, is okay because it forces us to 
really look at the initiative very hard and very critical, 
should the service pick it up either as a program of record or 
as a temporary effort. But it is something that we are watching 
very carefully. And to date, in my experience--in my nine 
months--the vice chiefs of the services and the staffs have 
worked very closely together, and in a very cooperative way, to 
track these main initiatives.
    Mr. Berkson. Although it is, you know, at the end of the 
Administration--and the next Administration will do what they 
do with regard to 2010--but if you just take the timeframe, my 
main job is looking at 2010 through 2015 right now.
    Dr. Snyder. I am sorry. It is looking----
    Mr. Berkson. My main job is looking at the years 2010 
through 2015.
    Dr. Snyder. Okay.
    Mr. Berkson. So all of the issues that JIEDDO has to deal 
with that need to be sustained in the longer term are issues we 
look at, and are looking at, kind of in the year--two years 
out.
    The wonderful thing about the capability that JIEDDO has is 
they are going to be dealing with things that happen in the 
next two years. A month from now, we won't be able to predict 
what they are. And that is the money that is very difficult, in 
our process, to actually--those are the resources that are very 
difficult to bring to bear in a timely fashion. It can be done 
through supplementals, but even then, the timing is more 
difficult.
    So as you think about a transition of a program from JIEDDO 
into the service, as you think about the two-year-and-out 
window, that is the department and the kind of the natural 
rhythm of funding that we think about as we do our annual 
budget submission.
    And, again, the work that General Metz does really kind of 
encompasses the timeframe from this moment to the point in 
which the President signs the appropriations bill. That is the 
time that is the most, you know, critical for us for this 
activity, but also the most difficult to do in the kind of 
normal process.
    Dr. Snyder. Mr. Akin, do you have anything further?
    Mr. Akin. Nothing further.
    Dr. Snyder. Mr. Conaway, anything further?
    I wanted to give any of you that had any comment you wanted 
to make about anything we talked about today your last shot at 
the microphone today.
    General Kamiya, anything further?
    General Kamiya. No, sir.
    Dr. Snyder. I appreciate you being here.
    Mr. Beasley.
    Mr. Beasley. Yes. Thank you very much.
    Just----
    Dr. Snyder. You have to pull that microphone in, though.
    Mr. Beasley. Okay.
    For Mr. Conaway--you asked about the light MRAP. I double-
checked my notes here. CENTCOM has submitted their joint urgent 
operational need. That joint urgent operational need is at the 
Joint Staff J-8 today for their validation. In fact, the 
Department is leaning forward in assigning that to the MRAP 
Task Force.
    I think, in the press, you could even read some discussions 
about that light vehicle and some of its characteristics to be 
fielded to Afghanistan. So I see relatively quick turnaround in 
getting that capability to Afghanistan.
    Regarding oversight of JIEDDO, the director of JRAC has had 
the opportunity to participate in the Deputy Secretary's 
meetings over the last several years. And the meeting occurs 
with both the Deputy Secretary and the vice chairman.
    And their counsel is well-received. The direction vectors 
they give to JIEDDO help inform both the senior leadership and 
the director of JIEDDO in critical warfighting needs and 
priorities--again, informed by the Deputy Secretary and the 
vice chairman.
    As was stated, there is a senior resource steering group, a 
three-four-star-level board. They all have the opportunity to 
weigh in on the oversight of JIEDDO at any time.
    JIEDDO has a one-to-two-star board--representative from the 
services--broad range across the OSD offices--policy, 
intelligence, JRAC. AT&L has another office sitting on there--
Joint Staff--several Joint Staff offices. We all have the 
opportunity to provide our guidance and counsel.
    Back to the acquisition oversight. Again, the paradigm is 
my organization, JIEDDO. We don't buy anything. Someone else 
buys it. The oversight of the acquisitions falls under the 
acquisition process established by the organization that is 
doing that.
    What we do is help push them to get them to make their 
decisions, accomplish the acquisitions, the procurements, using 
the authorities they inherently have--get those waivers and 
deviations they may need--to get the capability to the 
warfighter as quickly as possible.
    Financial oversight--I think my experience with the 
JIEDDO--that is a continuing, improving endeavor of JIEDDO. 
Again, when they had 12 people as a task force, and they 
suddenly grew to a larger organization, the financial oversight 
may not have been perfect.
    My deputy director of the JRAC is in the comptroller. I 
have had discussions with him about the financial oversight. 
They are looking at ways to even improve it beyond what it is 
now. So my expectation is the financial oversight--the ability 
to actually get the money obligated, and understand where it is 
going to have additional improvements.
    Regarding funding of JIEDDO. I want to emphasize that the--
we will call it ``colorless money''--enables JIEDDO to rapidly 
respond to the needs of the warfighter.
    The JRAC has the same type of fund. We use the Iraq Freedom 
Fund. We have requested some additional funds in a rapid-
acquisition fund--colorless money. The JRAC has had very 
limited appropriations in fiscal year 2008. And, as a result, I 
have had to turn to the services and go through their processes 
to get funding.
    What I want to tell you is that process takes longer. If 
you have the funding up front, like JIEDDO has the funding, you 
can make the decisions. You can resource the capability. And 
you can get it to the warfighter.
    Over $2 billion in Joint Urgent Operational Needs (JUONs) 
have been funded, that are not counter-IED, in fiscal year 
2008. Over $1 billion will be funded, or is expected to be 
funded, in fiscal year 2009 that are not counter-IED. Had that 
funding been available and not part of the second supplemental 
reprogramming actions that have occurred over the last two 
months, then some of these actions could have been accomplished 
months before.
    So what I am saying is, having the colorless money saves 
months on getting the capability to the warfighter. And I can 
document that for the non-counter-IED JUONs.
    Thank you very much.
    Dr. Snyder. Thank you, Mr. Beasley.
    I notice you have got some pieces of paper there. I didn't 
see an organizational chart there, which I think I would say, 
``Thank God for that; that I don't have to look at that.'' I 
think it would be a very complicated organizational chart, 
trying to follow that around. But I appreciate your outlining 
those concepts. I appreciate your service.
    Mr. Matthews, anything further you want to say?
    Mr. Matthews. Sir, nothing further than to say it is an 
important topic. I appreciate you spending the time to look 
into it. I hope you have got all the information you need to 
make the right decisions. And the message is the same on what 
is important and flexible and allows them the agility to make a 
difference in a timely fashion. Thank you.
    Dr. Snyder. Yes. Thank you.
    General Metz, or Mr. Berkson, have----
    Mr. Berkson. I just want to thank you again, on behalf of 
the Secretary and the Deputy. This is something we want to work 
with the Congress to find out how we can all be comfortable 
getting to the best solution to save our soldiers' lives.
    Dr. Snyder. Well, we appreciate you all being here today, 
and appreciate your service. And we may have some questions in 
follow up for the record. Or you all get back with your folks 
and they say, ``Wait a minute, we should have informed about 
such and such.'' Feel free to send that over to us, and we will 
include that as part of the record and distribute it to the 
membership also.
    Thank you all.
    We are adjourned.
    [Whereupon, at 2:44 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           September 16, 2008

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 16, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5681.001
    
    [GRAPHIC] [TIFF OMITTED] T5681.002
    
    [GRAPHIC] [TIFF OMITTED] T5681.003
    
    [GRAPHIC] [TIFF OMITTED] T5681.004
    
    [GRAPHIC] [TIFF OMITTED] T5681.005
    
    [GRAPHIC] [TIFF OMITTED] T5681.006
    
    [GRAPHIC] [TIFF OMITTED] T5681.007
    
    [GRAPHIC] [TIFF OMITTED] T5681.008
    
    [GRAPHIC] [TIFF OMITTED] T5681.009
    
    [GRAPHIC] [TIFF OMITTED] T5681.010
    
    [GRAPHIC] [TIFF OMITTED] T5681.011
    
    [GRAPHIC] [TIFF OMITTED] T5681.012
    
    [GRAPHIC] [TIFF OMITTED] T5681.013
    
    [GRAPHIC] [TIFF OMITTED] T5681.014
    
    [GRAPHIC] [TIFF OMITTED] T5681.015
    
    [GRAPHIC] [TIFF OMITTED] T5681.016
    
    [GRAPHIC] [TIFF OMITTED] T5681.017
    
    [GRAPHIC] [TIFF OMITTED] T5681.018
    
    [GRAPHIC] [TIFF OMITTED] T5681.019
    
    [GRAPHIC] [TIFF OMITTED] T5681.020
    
    [GRAPHIC] [TIFF OMITTED] T5681.021
    
    [GRAPHIC] [TIFF OMITTED] T5681.022
    
    [GRAPHIC] [TIFF OMITTED] T5681.023
    
    [GRAPHIC] [TIFF OMITTED] T5681.024
    
    [GRAPHIC] [TIFF OMITTED] T5681.025
    
    [GRAPHIC] [TIFF OMITTED] T5681.026
    
    [GRAPHIC] [TIFF OMITTED] T5681.027
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 16, 2008

=======================================================================

      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. In specific terms, please describe the current level of 
interagency (IA) support to DOD's C-IED effort. What additional IA 
support would you like to see? How is our homeland security benefitting 
from the large investment and significant accomplishments of DOD's C-
IED effort? Is there a formal process for exchange of information 
between JIEDDO and the Department of Homeland Security and other 
federal departments and agencies?
    Mr. Berkson. JIEDDO benefits extensively from interagency support. 
External agencies have provided JIEDDO with more than 100 personnel who 
serve as liaisons with their organizations, as outlined in JIEDDO's May 
2008 quarterly report to the Congress. These personnel are DoD points 
of contact and catalysts for initiatives across the full range of 
efforts necessary to defeat the IED threat at home and abroad. JIEDDO 
works with other agencies to counter transnational threats through 
information sharing and collaboration as well as technology transfer 
programs. Local agencies and bomb squads have access to, and can 
provide information to support, a database of improvised explosive 
devices used around the world. This database is the repository for all 
of the data on bomb-making methods collected from available sources, 
including the military and the Bureau of Alcohol, Tobacco, Firearms, 
and Explosives. Researchers cull data from manuals and Web materials 
generated by insurgents. Only cleared users can access the site, chief 
among whom are the country's roughly 2,900 bomb technicians on 472 
accredited squads.
    Through collaboration and an expansive set of forums, information-
sharing networks, and outreach efforts, JIEDDO coordinates, 
deconflicts, and collaborates on finding solutions to IED threats, 
integrating its efforts with the substantial ongoing work of the armed 
services, the intelligence community, interagency organizations, and a 
broad range of public and private partners. These coordinated efforts 
allow JIEDDO to provide the leaders of government agencies with a 
single point of contact for counter-IED activities, while helping to 
establish a common operational picture of IEDs and their employment 
around the world.
    Dr. Snyder. In specific terms, please describe the current level of 
interagency (IA) support to DOD's C-IED effort. What additional IA 
support would you like to see? How is our homeland security benefitting 
from the large investment and significant accomplishments of DOD's C-
IED effort? Is there a formal process for exchange of information 
between JIEDDO and the Department of Homeland Security and other 
federal departments and agencies?
    General Metz. JIEDDO benefits extensively from interagency support. 
Interagency collaboration is already fairly robust within JIEDDO and 
there are no obvious shortfalls in our ability to leverage all the 
assets of the U.S. government. JIEDDO has daily contact with multiple 
interagency personnel including: resident LNOs from the Central 
Intelligence Agency (CIA); Defense Intelligence Agency (DIA); National 
Ground Intelligence Center (NGIC); National Geospatial Intelligence 
Agency (NGA); National Security Agency (NSA); Bureau of Alcohol, 
Tobacco and Firearms (ATF); and Department of Homeland Security (DHS). 
This support encompasses more than 80 liaison personnel from external 
agencies working towards JIEEDDO's Counter-LED (C-IED) mission. These 
personnel serve as the DoD point of coordination and catalyst for 
initiatives across a full range of efforts necessary to defeat the IED 
threat at home and abroad; they are embedded throughout the JIEDDO 
headquarters and our C-IED Operations Integration Center (COIC).
    JIEDDO works with other agencies against transnational threats by 
information sharing and collaboration, as well as, technology transfer 
programs. Government agencies and local bomb squads provide information 
to support a database of IEDs used around the world. This database 
stores all the data on bomb-making methods collected from available 
sources, including the military and the ATF. Researchers also cull data 
from captured manuals and internet available materials created by 
insurgents. Only cleared users can access the site, and among the 
visitors are the country's roughly 2,900 bomb technicians on 472 
accredited squads.
    Additionally, the JIEDDO Chief Scientist and Science Advisor is a 
member of the National Science and Technology Council Subcommittee on 
Domestic Improvised Explosive Devices. This group meets monthly to 
discuss issues associated with the protection of the Homeland from the 
threat of IEDs. Further, through Science and Technology, JIEDDO is 
working with DHS to share information that will provide benefit to both 
the warfighter abroad, as well as, to the protection of United States 
citizens at home.
    JIEDDO established its formal process for information sharing 
through collaboration and an expansive set of forums, information 
sharing networks, and outreach efforts. JIEDDO coordinates, de-
conflicts, and collaborates on finding solutions to IED threats; 
integrating its efforts with the substantial ongoing work of the Armed 
Services, the intelligence community, interagency organizations, and a 
broad series of public and private partners. This allows JIEDDO to 
provide senior leaders of government agencies with a single point of 
contact for C-IED efforts, while helping to establish a common 
operational picture of IEDs and their employment around the world. 
JIEDDO designed its processes and procedures to ensure close 
coordination with all Interagency and International partners within the 
C-IED fight.
    JIEDDO enjoys excellent partnerships with DHS and USNORTHCOM in our 
focus on protecting the Homeland. JIEDDO supports the homeland security 
C-IED fight through a full-time NORTHCOM desk officer who provides 
daily C-IED intelligence liaison with NORTHCOM and other interagency 
organizations regarding potential IED threats to the homeland. The 
NORTHCOM desk officer also continuously monitors world-wide IED trends, 
tactics, techniques, and procedures that terrorist or criminal groups 
may implement with the intent or capability of attacking the homeland. 
JIEDDO also maintains a full-time Chemical, Biological, Radiological, 
Nuclear, and Explosives (CBRNE) Desk officer who maintains intelligence 
liaison with various interagency representatives regarding any 
potential CBRNE nexus to the homeland IED threat. Both of these 
analysts also have daily access to the ATF LNO assigned to JIEDDO, 
thereby providing information sharing across U.S. governmental 
agencies. Within JIEDDO, the NORTHCOM desk officer can exchange 
information with the DHS through NORTHCOM contacts or one of several 
DHS points of contact directly, depending on the information required. 
JIEDDO's lead DHS LNO is developing a Concept of Operations (ConOp) for 
implementation of JIEDDO (COIC) tools and methodologies against the DHS 
problem set. JIEDDO receives ample support and is able to conduct 
liaison with all required federal agencies through resident LNOs, 
USNORTHCOM, the National Counterterrorism Center (NCTC), DIA's Joint 
Interagency Task Force-Counterterrorism (JITF-CT), other COCOMs, or 
direct points of contacts in support of the homeland defense C-IED 
mission.
    JIEDDO welcomes continued support from our IA partners, their 
liaison personnel, and other identified personnel involved in the C-IED 
mission.
    Dr. Snyder. In specific terms, please describe the current level of 
interagency (IA) support to DOD's C-IED effort. What additional IA 
support would you like to see? How is our homeland security benefiting 
from the large investment and significant accomplishments of DOD's C-
IED effort? Is there a formal process for exchange of information 
between JIEDDO and the Department of Homeland Security and other 
federal departments and agencies?
    Mr. Matthews. JIEDDO's connection with the interagency (IA) is 
extensive. The IA has numerous liaisons to JIEDDO both here in the 
United States and forward. The Terrorist Explosives Device Analytical 
Center (TEDAC) located with the FBI at Quantico, VA is an IA location 
where the sharing of IED related information is conducted. The TEDAC 
coordinates and manages the united effort of Law Enforcement, 
intelligence and military assets to technically and forensically 
exploit IEDs across the interagency.
    Dr. Snyder. In specific terms, please describe the current level of 
interagency (IA) support to DoD's C-IED effort. What additional IA 
support would you like to see? How is our homeland security benefiting 
from the large investment and significant accomplishments of DoD's C-
IED effort? Is there a formal process for exchange of information 
between JIEDDO and the Department of Homeland Security and other 
federal departments and agencies?
    Mr. Beasley. As Director (Acting) of the Joint Rapid Acquisition 
Cell (JRAC), I do not have oversight of the level of interagency 
support to DoD's Counter-Improvised Explosive Device (C-IED) mission or 
JIEDDO's exchange of information with the Department of Homeland 
Security and other federal departments and agencies. The JRAC supports 
the JIEDDO by assessing and forwarding C-IED Joint Urgent Operational 
Needs (JUONs), received from Combatant Commanders, to the JIEDDO and 
through the JRAC's Director's membership on various JIEDDO Boards that 
evaluate and recommend approval of C-IED initiatives.
    Dr. Snyder. In specific terms, please describe the current level of 
interagency (IA) support to DOD's C-IED effort. What additional IA 
support would you like to see? How is our homeland security benefitting 
from the large investment and significant accomplishments of DOD's C-
IED effort? Is there a formal process for exchange of information 
between JIEDDO and the Department of Homeland Security and other 
federal departments and agencies?
    General Kamiya. One means of interagency support is participation 
in the mission rehearsal exercises that USJFCOM conducts for joint 
force headquarters designated for employment in Iraq, Afghanistan, and 
Horn of Africa. The exercises provide an environment for training and 
collaboration between deploying headquarters, interagency partners, and 
multinational participants. Interagency participants relevant to C-IED 
efforts include Department of Treasury and Justice as well as DOD 
intelligence agencies such as NSA.
    Another avenue of interagency support is information exchange with 
USJFCOM's Knowledge and Information Fusion Exchange (KnIFE). KnIFE has 
access to the Department of Homeland Security TRIPwire website that 
catalogues IED technical information to assist domestic bomb squads and 
the Law Enforcement Online (LEO) secure computer network that gives law 
enforcement officers around the country access to sensitive but 
unclassified information and intelligence reports. Also, KnIFE 
coordinates with the Secret Service to receive current Threat Finance 
information that can be shared throughout DOD and the interagency 
community on KnIFE's Websites.
    As KnIFE moves forward into other knowledge areas there will likely 
be increasing areas of interaction and support required with the 
various federal departments and agencies. USJFCOM is currently 
analyzing requirements to determine prioritization of future KnIFE 
knowledge areas. One example of this effort would be support for a site 
on the KnIFE portal for Weapons of Mass Destruction (WMD) information. 
In the case of a WMD site, KnIFE would need to access data from a 
variety of different interagency organizations to include DOE, FEMA, 
DHS, ATF, FBI, and CDC.
    USJFCOM is unable to respond with specific examples of how homeland 
security is improved as a result of DOD investment in the C-IED effort. 
It could be stated, however, that if the best means to secure the 
homeland is by ``defending in depth'' then the work that JIEDDO is 
doing to defeat the network that supports the use of IED's in the 
CENTCOM AOR is helping to secure the homeland.
    USJFCOM is not aware of formal processes used to exchange 
information between JIEDDO and DHS.
    Dr. Snyder. At their April 2008 Senior Warfighting Forum, the 
COCOMs were complimentary about JIEDDO's contributions, but some 
expressed significant concerns about the organization outliving its 
original purpose and expanding into areas that are redundant with 
existing DOD organizations. What, if anything, is being done to address 
these concerns? How are the COCOMs--JIEDDO's main customers--involved 
in decisions related to JIEDDO's future?
    Mr. Berkson. JIEDDO initiatives benefit from funding plans that are 
transparent, analytically based, executable, and linked to the 
sustainment plans for the initiatives. To that end, the Deputy 
Secretary of Defense and his senior advisors, including the Vice 
Chairman of the Joint Chiefs of Staff, review all JIEDDO expenditures 
exceeding $25 million. The Deputy Secretary and his advisors also 
review the associated initiatives to ensure that they are not redundant 
with existing capabilities.
    DoD fully recognizes the need for active COCOM participation in 
discussions related to JIEDDO's future. Representatives from the COCOMs 
have participated in JIEDDO ``cross brief '' conferences and program 
review issue teams, and key elements of JIEDDO are staffed with liaison 
officers who operate from forward locations in the COCOMs' areas of 
responsibility. The COCOMs have also provided liaison officers to 
JIEDDO to enhance communications and collaboration. The Joint Staff 
also maintains primary, direct communications with COCOMs on all issues 
concerning JIEDDO. The Joint Staff leverages the operational expertise 
of the COCOMs and the Senior Warfighter Forums to identify issues, 
priorities, and capability and resource mismatches.
    JIEDDO's original purposes--to design, develop, and field counter-
IED capabilities well inside normal budgetary timelines--remain highly 
relevant to our combatant commanders. The COCOMs confirm that JIEDDO 
has provided a synergy unique within DoD, and that it has enabled joint 
and coalition forces to respond effectively to the disruptive threat 
posed by IEDs and the networks behind them. The Secretary continues to 
consult with the COCOMs, along with his other military and civilian 
advisors, to ensure that JIEDDO continues to meet this unique need.
    Dr. Snyder. At their April 2008 Senior Warfighting Forum, the 
COCOMs were complimentary about JIEDDO's contributions, but some 
expressed significant concerns about the organization outliving its 
original purpose and expanding into areas that are redundant with 
existing DOD organizations. What, if anything, is being done to address 
these concerns? How are the COCOMs--JIEDDO's main customers--involved 
in decisions related to JIEDDO's future?
    General Metz. JIEDDO works deliberately to avoid duplication of 
Counter-IED (C-IED) efforts. One area which we are especially careful 
with is the Title X responsibility Services have to train and equip 
their forces for employment by Combatant Commanders (COCOMS). Using our 
chartered authority to Lead, Advocate, and Coordinate all Department of 
Defense (DoD) C-IED actions in support of the COCOMS, JIEDDO works 
closely with the Services to overlay vigorous, accurate, up to the 
minute training experiences on to the existing Service pre-deployment 
programs. This effort supplements, but does not supersede, Service 
training efforts. JIEDDO leverages the acquisition infrastructure of 
Services to harness their warfighting expertise and their acumen in 
defense procurement. In the effort to lead, focus, and coordinate DoD 
C-IED efforts, JIEDDO actively works with Services to avoid duplication 
of their programs that contribute to defeating IEDs.
    Both the Senior Warfighting Forum (SWarF) and the Deputy's Advisory 
Working Group (DAWG) value the synergy of JIEDDO's Train the Force, 
Defeat the Device, and Attack the Network lines of operation. JIEDDO's 
ability to fuse information from numerous sources is leveraged by all 
COCOMS. JIEDDO's main effort is delivering actionable and operational 
information to identify and attack the cells and networks that are 
conducting IED attacks against coalition forces, and civilians, in Iraq 
and Afghanistan. COCOMs, through the Chairman of the Joint Chiefs of 
Staff (CJCS), actively participate in DoD decisions regarding the 
future of JIEDDO via a number of working forums (SWarF, DAWG, etc.) 
where they have a voice.
    JIEDDO, as a jointly manned activity of the Department of Defense, 
operates under the authority, direction, and control of the Deputy 
Secretary of Defense. As JIEDDO's Director, I serve as the principal 
advisor to both the Deputy Secretary of Defense and to the Chairman of 
the Joint Chiefs of Staff on IED defeat matters. The COCOMs, JIEDDO's 
principal customers, collaborate with JIEDDO through the CJCS and vice 
versa. JIEDDO provides rapid responses to war fighter C-IED needs that 
existing DoD organizations are unable to provide. Further, through 
continuous collaboration and evolvement of the COCOMs in the 
development and implementation of their C-IED plans, JIEDDO continues 
to take proactive measures to provide a supportive and collaborative 
role in each unique COCOM mission area.
    Dr. Snyder. At their April 2008 Senior Warfighting Forum, the 
COCOMs were complimentary about JIEDDO's contributions, but some 
expressed significant concerns about the organization outliving its 
original purpose and expanding into areas that are redundant with 
existing DOD organizations. What, if anything, is being done to address 
these concerns? How are the COCOMs--JIEDDO's main customers--involved 
in decisions related to JIEDDO's future?
    Mr. Matthews. The IED problem still remains a clear and present 
threat to our forces for the foreseeable future. The JIEDDO maturation 
process has led to a number of initiatives to defeat what has evolved 
into a sophisticated network. The JIEDDO program is reviewed by the 
Deputy Secretary of Defense, the Vice Chairman of the Joint Chiefs of 
Staff and other Department senior leaders for expenditure exceeding $25 
million. The JIEDDO review process scrutinizes initiatives from the 
services and the COCOMs. JIEDDO works deliberately to avoid redundancy 
with existing DOD organizations. The Deputy's Advisory Working Group 
reviewed the JIEDDO organization activities and functions and decided 
in May 2008 to keep JIEDDO as an enduring organization.
    Dr. Snyder. At their April 2008 Senior Warfighting Forum, the 
COCOMs were complimentary about JIEDDO's contributions, but some 
expressed significant concerns about the organization outliving its 
original purpose and expanding into areas that are redundant with 
existing DoD organizations. What, if anything, is being done to address 
these concerns? How are the COCOMs--JIEDDO's main customers--involved 
in decisions related to JIEDDO's future?
    Mr. Beasley. As Director (Acting) of the Joint Rapid Acquisition 
Cell (JRAC), I do not have cognizance of the COCOM's concerns regarding 
JIEDDO or its actions to address these concerns. The JRAC supports the 
JIEDDO by assessing and forwarding Counter-Improvised Explosive Device 
(C-IED). Joint Urgent Operational Needs (JUONs), received from 
Combatant Commanders, to the JIEDDO and through the JRAC Director's 
membership on various JIEDDO Boards that evaluate and recommend 
approval of C-IED initiatives.
    Dr. Snyder. At their April 2008 Senior Warfighting Forum, the 
COCOMs were complimentary about JIEDDO's contributions, but some 
expressed significant concerns about the organization outliving its 
original purpose and expanding into areas that are redundant with 
existing DOD organizations. What, if anything, is being done to address 
these concerns? How are the COCOMs--JIEDDO's main customers--involved 
in decisions related to JIEDDO's future?
    General Kamiya. USJFCOM does not have a current mandate to 
coordinate discussions with combatant commands about JIEDDO's future. 
The Senior Warfighter Forum (SWarF) referenced in the question focused 
on identifying required C-IED capabilities and a prioritized 
descriptive set of capability attributes to inform the Department on 
development of future capabilities. The SWarF focused on the ``demand 
side'' of the warfighter challenge while a concurrent Program Decision 
Memorandum (PDM) directed that PA&E conduct a study focused on the 
``supply side'' of the challenge; that is, how best to institutionalize 
JIEDDO's functions in the Department with respect to operations, 
intelligence, training, and acquisition. During the SWarF, combatant 
commands presented perspectives on the JIEDDO organization to include 
opining on functions that JIEDDO performed that could be considered 
redundant with in-theater capabilities or better handled by another 
organization within DOD.
    These combatant command comments, in addition to prioritized C-IED 
capabilities and attributes, were reported to VCJCS, briefed to the 
JROC, and ultimately were used to inform the 18 April 2008 PA&E study 
findings and recommendations. The PA&E study findings and 
recommendations were presented to the Deputy Secretary of Defense 
Advisory Working Group (DAWG) in May of 2008. The PA&E recommendations 
presented to the DAWG considered and incorporated combatant command 
input from the SWarF and offered several courses of action that spanned 
from maintaining the JIEDDO status quo, to three separate options for 
distributing discrete JIEDDO functions across different DOD 
organizations. While the Department's decision on these various options 
is pending, the SWarF provided a viable venue for the combatant 
commands to voice their needs and concerns to inform the Department's 
decision on a way ahead for institutionalizing JIEDDO.
    USJFCOM is unable to provide a specific response since USJFCOM does 
not work with JIEDDO on this issue. It is feasible that future SWarF's 
could be convened to address this issue but this is not planned at this 
time.
    Dr. Snyder. When available, please provide the committee the 
Program Decision Memorandum discussing the institutionalization of 
JIEDDO.
    Mr. Berkson. Program Decision Memoranda are among the internal 
working documents used in developing the President's budget request. 
These documents are not released outside of the Department. Upon 
completion of internal program and budget reviews, the Department 
provides detailed budget justification documents to accompany the 
President's budget request. These documents express the 
administration's position on funding levels requested in the base 
budget and across the Future Years Defense Program (FYDP).
    Dr. Snyder. You testified that the IED will never be removed from 
the battlefield, but that the endpoint for JIEDDO would be the defeat 
of the IED as a weapon of strategic influence, as declared in your 
mission statement from JIEDDO's DOD Directive. In specific terms, 
please explain how you will know when this endpoint is achieved? Will 
JIEDDO's effort continue at the current level until that endpoint is 
reached or will it be scaled proportionately to the level of the IED's 
impact?
    General Metz. I believe that we will never be able to completely 
eradicate the IED as a weapon used by our enemy, but must focus on 
neutralizing its strategic effects. Thus, while the weapon may manifest 
itself in many ways at the tactical level, we must understand that the 
strategic intent of those who employ it is to weaken the resolve of the 
American public, their decision makers, and our allies throughout the 
world. Long after Coalition Forces have drawn down in Iraq and 
Afghanistan, the United States will, in my estimation, need to maintain 
an enduring and latent capacity to react to the threat of IEDs. If my 
appreciation of the strategic threat is accurate, then American 
warfighters can expect to face this tactical threat whenever they enter 
a non-permissive or semi-permissive environment. This has profound 
policy implications for our future, and must be factored into any 
future considerations concerning U.S. military engagement.
    At JIEDDO, the matter of defeating IEDs is not based on counting, 
but rather as one of tempo and effect that will impact the United 
States and our allies, not just in Iraq and Afghanistan but throughout 
the world. Given the significant superiority of our conventional forces 
against likely conventional threats, it is evident to JIEDDO that had 
we not galvanized against this threat in the CENTCOM region, we would 
certainly have had to combat it somewhere else. As the need for JIEDDO 
is continuously expressed by the Combatant Commands (COCOMs), 
principally by CENTCOM, the IED threat continues to evolve. JIEDDO must 
remain easily adaptable to counter this fluctuation and provide C-IED 
solutions in response to Joint Urgent Operational Needs (JUONs).
    Currently, JIEDDO's Operations Division has begun discussions with 
United States Forces Korea in the Pacific Command's area of 
responsibility concerning the potential of IED threats to U.S. and 
Coalition Forces in the Pacific Rim and Northeast Asia. Similarly, we 
have responded to appeals from United States Southern Command seeking 
assistance in countering a significant IED threat to U.S. partners, 
stemming from narco-terrorists within that region. As we continue to 
adapt to new threats and tactics in Iraq and Afghanistan, JIEDDO must 
also support our COCOM partners in other areas of responsibility where 
the IED threat is increasing.
    There is ebb and flow that follows this weapon, our enemy, and the 
strategic influence it holds over our warfighters. JIEDDO stands ready 
and capable of responding to the adaptable IED threat.
    Dr. Snyder. You testified that a metric for JIEDDO's success is the 
fact that it takes more IEDs to cause a Coalition Force casualty than 
it did before JIEDDO was established. However, this statistic does not 
take into account the significant increase in IEDs emplaced nor does it 
capture the total number of Coalition Forces', Iraqi and Afghan 
Security Forces', and civilian casualties caused by IEDs. Additionally, 
it can be argued that the decrease in U.S. troop casualties per IED can 
be attributed to efforts outside of JIEDDO's main contributions, such 
as increased armor protection on vehicles and the fielding of the MRAP 
vehicles. JIEDDO's annual report highlights other metrics used to gauge 
the intensity level of the IED fight and the impact of C-IED 
initiatives, but it does not provide statistical data to support these 
metrics. Can you please discuss JIEDDO's metrics for success in 
defeating the IED as a weapon of strategic influence and provide 
statistical data to support these metrics?
    General Metz. Mr. Chairman, you are correct in the fact that the 
enemy must emplace more IEDs to cause a casualty is a benefit of not 
only JIEDDO's investments but also improvements in armor, the fielding 
of the MRAP vehicles and perhaps most importantly, the actions of the 
great American Soldiers, Sailors, Airmen and Marines on the ground.
    Some of the other JIEDDO metrics for success in defeating the IED 
as a weapon of strategic influence can be sub-divided as follows; 
metrics on overall IED activity, metrics on IED activity normalized by 
Coalition Force (CF) levels, metrics on enemy effectiveness in 
inflicting casualties on CF, and metrics that indicate changes in enemy 
tactics, techniques, and procedures as a result of JIEDDO initiatives. 
Each of these groups is used to evaluate JIEDDO's progress in defeating 
the IED and inform leadership when adjustments in strategy are in 
order.
    Metrics on overall IED activity measures the total number of IED 
incidents and divides those incidents into their component parts. 
Currently, IED incidents are parsed as follows: IEDs Found and Cleared, 
Ineffective IED Attacks, Effective IED Attacks, and IED Attacks with 
Damage to Coalition Force Vehicles (a subset of ineffective attacks. In 
these cases, the enemy initiated an attack with no CF killed or 
wounded; however, the vehicle was damaged during the attack.).
    Metrics on IED activity normalized by Coalition Forces takes into 
account the overall CF presence in theater. These metrics are an 
indication of the risk that CF are exposed to in each theater of 
operation. These metrics were first established in September 2008 as a 
way to compare the risk to CF in Afghanistan to Iraq. The following 
metrics have been used and are being refined: Monthly KIA/WIA per 1000 
CF Troops, Monthly IED Incidents per 1000 CF Troops, and Cumulative 
Risk of IED Exposure/Casualty/KIA over a given time period.
    Metrics on enemy effectiveness are a proxy for the level of effort 
the enemy must expend to cause a CF casualty. These metrics include IED 
casualty rates that are sub-divided between CF WIA/attack and CF KIA/
attack, and incidents per CF casualty.
    Additionally, JIEDDO also tracks changes in enemy tactics, 
techniques, and procedures. These metrics include type of IED, type of 
triggering mechanism, and general location of the incident. Mapping 
these trends against the introduction of JIEDDO incidents provide 
insight into potential changes in strategy/tactics and the 
effectiveness of fielded JIEDDO initiatives.
    Statistical data to support these metrics is classified and we 
would be happy to provide that in a classified forum. However, the data 
shows that overall IED activity in Operation Iraqi Freedom OIF has 
decreased. Specifically, IED incidents in September 2008 were 
approximately 30% of their September 2007 and 25% of their September 
2006 levels. Similarly, effective attacks against CF in September 2008 
are 20% of their September 2007 totals, and 10% of their September 2006 
totals.
    Dr. Snyder. General Metz testified that in the future the Counter 
IED Operations Integration Center (COIC) could be moved to another 
organization in DOD to take full advantage of its human network attack 
capabilities. Where in DOD do you think the COIC could go? Do you think 
the COIC is a unique capability and one that should endure for future 
fights against hostile human networks regardless of the type of threat 
they choose to use against us? How does the COIC and its capabilities 
compare with all of DOD's other human network attack efforts? Are any 
of the COIC's capabilities redundant?
    Mr. Matthews. The COIC's capabilities are similar to other 
organizations in that they endeavor to fuse intelligence from all 
sources not just HUMINT. The uniqueness of the COIC, however, is that 
they are focused on the IED networks. If the COIC was to be moved to 
another organization, it would be important for it to remain focused on 
the IED problem. A diffusion/degradation of that focus would have 
negative effects for our troops in contact. The insights that the COIC 
has gained into network operations no doubt has a certain degree of 
application to other network operations.
    Dr. Snyder. Is there any additional information you would like to 
add for the record?
    Mr. Berkson. Not at this time. I would like to thank you for your 
support of the Department's counter-IED efforts.
    Dr. Snyder. Is there any additional information you would like to 
add for the record?
    General Metz. As I stated in my written testimony, I would like to 
reiterate for the record that in JIEDDO's mission area of rapid 
acquisition, JIEDDO responds to urgent warfighter needs through the 
development and delivery of capabilities, normally within a period of 
four-24 months. As DoD's leader for C-IED investments, JIEDDO rapidly 
integrates the efforts of academia, industry, interagency, and joint 
and allied forces to focus and coordinate key investments across the 
tactical, operational, and strategic battlespace. JIEDDO uses 
aggressive finding networks to identify solutions to persistently 
difficult, high-priority, technical, and operational capability gaps.
    While JIEDDO moves towards a stable future within the Department, 
it is critical that rapid acquisition remains a priority. JIEDDO's 
rapid acquisition capability is enabled by Congress's support of multi-
year, flexible funding. The flexibility of this funding allows JIEDDO 
to remain agile in our C-IED fight.
    Dr. Snyder. Is there any additional information you would like to 
add for the record?
    Mr. Matthews. No, but thank you for the opportunity to comment.
    Dr. Snyder. Is there any additional information you would like to 
add for the record?
    Mr. Beasley. No, thank you, I have nothing further to add for the 
record.
    Dr. Snyder. Is there any additional information you would like to 
add for the record?
    General Kamiya. None.

                                  <all>

</pre></body></html>
